NO.

IN THE SUPREME COURT OF THE UNITED STATES

OCTOBER TERM, 2021

RODNEY RUSSELL
Petitioner
v.
UNITED STATES OF AMERICA
Respondent

ON PETITION FOR WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE FIRST CIRCUIT

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

Pursuant to Supreme Court Rule 39, the petitioner, Rodney Russell, moves
to file the attached Petition For Writ of Certiorari to the United States Court of
Appeals for the First Circuit without payment of costs and to proceed in forma
pauperis, on the grounds that petitioner was represented in the United States Court

of Appeals for the First Circuit by counsel appointed to the Criminal Justice Act,
18 U.S.C. ยง 3006a.
DATE:

April 2, 2021

Respectfully Submitted,
RODNEY RUSSELL
Petitioner

By his attorney of record

Use 2 Wddby
WILLIAM S. MADDOX, Esquire
P.O. Box 1202

Rockland, Maine 04841

(207) 594-4020
